No.

31n tfje
Supreme Court of tfje ©niteb States

Riccardo Green,
Petitioner,
v.
Washington State Employment Security Department

Respondent.

PROOF OF SERVICE

I, Riccardo Green, hereby state and declare that I am a United States citizen,
a Washington State resident, and over eighteen years of age that on this date,
September 09. 2021. as required by United States Supreme Court Rule 29,1 have
served a true and correct copy of the enclosed PETITION FOR WRIT OF
CERTIORARI, MONEY ORDER PAYMENT OF $300 #19-262682180,
APPENDIXES A thru AH (la thru 561a, Vol. I, Vol. II, & Vol. Ill), PROOF
OF SERVICE, and CERTIFICATE OF COMPLIANCE on each party to the
above proceedings or that party’s counsel, and on every other person required to be
served, by depositing an envelope containing the true and correct copy of the

ORIGINAL

Page 1 of 2

*

document[s] indicated below in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivering to a third party
commercial carrier for delivery within 3 calendar days.
I, Riccardo Green, declare under penalty of perjury under the laws of the
State of Washington, RCW 9A.72.085 that the foregoing is true and correct.

1] US Postal Mail Services via certified mail with electronic return receipt.

a] Attorney General of Washington
Licensing and Administrative Law Division
800 Fifth Avenue, Suite 2000; Seattle, WA 98104
Attorney: Mr. Jacob W. Dishion, WSBA No: 46578
Email[s]: Jacob.Dishion@atg.wa.gov

b] United States Supreme Court
1 First Street, N. E.; Washington, DC 20543
Attention: Clerk of the Court

Executed on September 09, 2021

Respectfully submitted,

Ricca^dfrGye6tC
BSNHS, MSA
Pro Se^Eitigant/Petitioner/Advocate
Page 2 of 2

